Peace Corps
Office of Inspector General




    Peace Corps/Albania office in Tirana




                           Source: CIA World Factbook




    Final Audit Report:
    Peace Corps/Albania
            IG-11-07-A
                                                        June 2011
                                    EXECUTIVE SUMMARY
Peace Corps/Albania’s financial and administrative operations were functioning effectively and
in overall compliance with agency policy and federal regulations. However, we did identify
certain operations requiring management action to ensure efficient and effective use of Peace
Corps’ resources. The following provides a summary of our audit findings and conclusions.

Property Management
The post did not promptly report reoccurring theft of Peace Corps property to the Office of
Inspector General (OIG). Further, the general services officer (GSO) did not file the required
Personal Property Report of Loss to ensure all losses were documented. As a result, it was
difficult to determine the amount of loss or to determine the approximate timeframes of the
occurrences.

Personal Services Contracts
The contract files for 13 personal services contracts (PSCs) did not contain the staff member’s
security recertification. During the audit, the post requested and received the missing
recertifications from the regional security officer (RSO).

Post personnel promptly corrected several of the deficiencies noted during our audit. As a result,
we were able to note corrective action in our report and reduce the number of recommendations.
Our report contains four recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.

Management concurred with all four of our recommendations and took timely action to
remediate our findings. As a result, we closed two recommendations. The remaining two
recommendations are open pending copies of a completed property inventory and contract
review.




Final Audit Report: Peace Corps/Albania                                                           i
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

TABLE OF CONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          PROPERTY MANAGEMENT................................................................................................................................ 1

          PERSONAL SERVICES CONTRACTS ................................................................................................................... 3

          PURCHASE CARD ............................................................................................................................................. 4

          INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES ........................................................... 5


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .......................................................6

LIST OF RECOMMENDATIONS .........................................................................................................7

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY...............................................................8

APPENDIX B: LIST OF ACRONYMS ..................................................................................................9

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................10

APPENDIX D: OIG COMMENTS.....................................................................................................13

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................14
                                          BACKGROUND
OIG conducted an audit of Peace Corps/Albania (hereafter referred to as “the post”) from
August 30, 2010 to September 17, 2010.

Peace Corps began operating in Albania in 1992, left in 1997 because of civil unrest, and
returned in 2003. Since 1992, over 441 Volunteers have served there. Currently, Volunteers
work in the areas of community development, health, and English education.

Our overall objective in auditing the post was to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                          AUDIT RESULTS
P ROPERTY M ANAGEMENT

The post did not promptly report and record thefts and losses.

The post experienced several thefts and losses dating back to May 2007. Staff and Volunteers
reported missing both personal and Peace Corps property and cash to the post management,
including cash from Volunteer mailboxes, cell phones, and a Peace Corps video camera worth
approximately $700.

In 2009, the country director (CD) and the safety and security coordinator (SSC) worked with the
Peace Corps safety and security officer (PCSSO) and the RSO to assess the situation and
recommend strengthening controls. Post changed the office locks and increased security.
However, the thefts and losses continued. In June 2010 the GSO informed the CD that 30 Peace
Corps cell phones and a digital camera were missing from a locked cabinet. In August 2010, the
CD and RSO caught a Peace Corps contractor stealing property from the CD’s office. The CD
and RSO took immediate administrative action and dismissed the contractor.

The CD communicated his concerns about the lack of security at the post to headquarters and
sought advice from the Office of General Counsel. The PCSSO said he contacted OIG at one
point but did not pursue an official hotline or investigative action because the property missing at
that time was not government property. However, once post staff realized that Peace Corps
cameras and cell phones had been stolen, post management should have formally contacted OIG
to report the thefts. Peace Corps Manual section (MS) 861 states:

        The following offenses should be reported to the OIG where they involve Peace Corps staff, Volunteers,
        Trainees, contractors, experts or consultants or funds (including Host Country, SPA, PASA, Partnership
        and other Agency funding sources). The nature and scope of any OIG investigation will be determined by
        the facts of the case, as they develop.” MS 861 lists theft first in the reportable offenses.



Final Audit Report: Peace Corps/Albania                                                                          1
Reporting theft promptly helps prevent future losses and ensures the responsible parties are able
to provide the necessary support to the post.

In addition, the GSO did not complete report of loss forms. MS 511.10 requires the property
officer prepare a Personal Property Loss Report for all missing or damaged property
immediately. The CD estimated almost $5,000 worth of personal and Peace Corps property and
cash was missing or stolen. However, without Personal Property Loss Reports it was difficult to
determine the full extent and timing of the losses. Filing Personal Property Loss Reports helps
ensure management is fully informed and can take necessary action.

In response to this audit, post created a personal property loss report (in the amount of $4,973)
for all of the missing property. For all property losses identified during inventories and during
normal business, the post must ensure a property loss report is filed. The requirement that post
personnel report property losses to the GSO for preparation of a property loss report should be
well documented in the staff handbook and communicated as necessary.

    We Recommend:

    1. That the director of management and operations document the requirement for reporting
       lost Peace Corps property and the process for submitting Personal Property Loss Reports.
       The process must include notifying the Office of Inspector General if the loss is the result
       of suspected theft.


Post did not ensure proper separation of duties regarding property management.

MS 511.5.6 states, “Individuals other than the Property Officer check database property reports
against physical inventory of property to confirm the existence of property listed on the
inventory record.”

Although the post conducted annual inventories, the property officer, who maintained the
property records, also conducted the physical inventory tests. The same individual should not
have control and custody over property. The separation of these duties helps provide checks and
balances and reduces the risk of theft or abuse.

    We Recommend:

    2. That the country director appoint an individual other than the property officer to conduct
       the physical inventory.




Final Audit Report: Peace Corps/Albania                                                             2
The GSO did not maintain an accurate and up-to-date property inventory listing.

During our audit we selected 37 properties items from the inventory to verify physical existence.
The GSO posted a list of property for each room that helped facilitate the physical verification of
property. However, we could not locate a CD-burner, battery charger, or small cupboard. In
addition, the records for two stolen items had not been updated and three items were listed with
incorrect property tag numbers. During our visit, the acting GSO corrected the inventory;
therefore, no recommendation is necessary.


P ERSONAL SERVICES C ONTRACTS

PSC files were not always complete and contained errors.

PSC files were well organized into folders containing the contract, security information,
performance evaluations, and competition. The files also included checklists to track
documentation completion. However, we reviewed 10 out of 17 recent PSC files and identified
the following errors and omissions.

•   A contract for a driver did not include the required overtime rate. The error was a result of
    the mail merge software and did not affect the obligation or payment amounts. During the
    audit the director of management and operations (DMO) corrected the overtime amount and
    revised the contract and statement of work to remove the supervisory function; therefore, no
    recommendation is necessary.

•   One contract inappropriately used the term “supervise” in the statement of work. Contractors
    are not permitted to perform inherently government functions, including supervising staff.
    MS 743.5.3 states that “Individuals serving under Personal Services Contracts may not
    perform inherently government functions, which include…c) supervising Peace Corps
    employees.” During the audit the DMO revised the statement of work to remove the term
    “supervise.”

•   One contract did not include a delegation of authority from the Office of Acquisitions and
    Contract Management (OACM) for a contract that exceeded $100,000. This oversight
    occurred because the contractor transitioned to a new job but the delegation of authority was
    attached to the previous assignment. According to MS 114 OACM must approve contracts
    in excess of $100,000. 1 During the audit, the DMO requested and received the delegation of
    procurement authority from OACM.

•   Four of the 10 PSC files we reviewed did not contain a security recertification from the RSO.
    MS 743.8.2 states that, “The CD must request re-certification of a continuously employed
    PSC every five years in accordance with 12 FAM 420.” When the DMO requested the RSO
    perform a security recertification of the PSCs, the RSO sent an email stating that the PSCs
1
  Peace Corps revised MS 114 in January 2011 to provide OACM with authority to authorize, execute, amend,
terminate, or administer all contracts, leases, agreements, or other procurements. OACM redelegates authority to
post personnel with specific limitations.


Final Audit Report: Peace Corps/Albania                                                                            3
    were already approved for recertification, but did not list which PSCs. Without a list or
    individual certificates, the DMO cannot ensure staff members have the required security
    certification. In response to the audit, the DMO requested that the RSO provide a full listing
    of staff security certification and re-certification dates. In March 2011, the RSO provided a
    listing that showed that all PSCs held current certifications.

Accurate and complete contract files are necessary to ensure fair and equitable personnel
practices and to avoid disputes. Further, current security certifications are necessary to help
ensure trusted personnel work for the Peace Corps and that Peace Corps personnel and resources
are safe.

    We Recommend:

    3. That the director of management and operations develop and implement a process to
       review contract files for completeness and accuracy, on a reoccurring basis and ensure
       security recertifications are being performed.


P URCHASE C ARD

Purchase card transactions were not always supported by proper authorization and
documentation.

We reviewed all of the purchase card transactions from fiscal year 2010. Based on our review
we determined that most transactions were properly approved and fully supported. However, we
identified the following discrepancies:

    •   One purchase card transaction was not supported by an invoice or a receipt because the
        order was placed over the phone. Staff stated that the goods were received.

    •   One purchase card transaction from March 2010 was not properly obligated before the
        purchase. Since this time, the cashier now requires that the financial assistant provide a
        print out of the obligation in FORPost before ordering with the purchase card.

MS 731 permits purchase card transactions conducted over the phone. However, purchase card
transactions must be fully supported by invoices and receipts to ensure charges are accurate and
provide proof of the purchase. MS 731 further states, “the approving officials are responsible for
reviewing and approving Cardholder monthly statements of account and all related supporting
documents such as funding documentation, Purchase Card logs, sales, receipts, dispute forms,
receiving reports, etc.” Before approving the purchase card statement in the credit card online
system, the approving official must review the charges for accuracy. Therefore, it is important
that the supporting documentation is available for comparing to the transactions to help prevent
errors and fraudulent charges.




Final Audit Report: Peace Corps/Albania                                                              4
    We Recommend:

    4. That the director of management and operations advise staff of the requirement to
       provide an invoice and receipt for all purchase card transactions before approving the
       purchase card statement.


I NTERNATIONAL C OOPERATIVE ADMINISTRATIVE SUPPORT SERVICES

Post did not receive proper authorization for additional International Cooperative
Administrative Support Services (ICASS) services.

The post participated in the ICASS process, received and reviewed invoices, and requested
modifications to reduce amounts where appropriate. However, the DMO did not have
documented approval from the Office of the Chief Financial Officer (OCFO) for two services:
(1) security to provide background checks and (2) financial management to process vouchers,
collections, and accommodation exchanges.

OFMH chapter 28 describes the basic ICASS services and requires overseas posts obtain a
waiver from the chief financial officer for any services not on the list of pre-approved services.
CFO Bulletin 06-08 provides a list of services to which overseas posts may subscribe. The chief
financial officer manages the ICASS program and ensures overseas posts are not subscribing and
paying for unnecessary services by requiring waivers for ICASS services that are not pre-
approved. This process helps prevent unnecessary costs and misuse of Peace Corps funds.

In response to our audit the post requested a waiver for the ICASS services from the Office of
the Chief Financial Officer. In February 2011 the OCFO “granted a waiver for these cost centers
but only for one-off transactions that are unavoidable,” and stated that “security services is
approved as it relates to background checks performed by ICASS on LE Staff at post.”
Therefore, no recommendation is necessary because post was able to take corrective action
before the issuance of the report.




Final Audit Report: Peace Corps/Albania                                                          5
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We did not identify questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps/Albania                                                          6
                              LIST OF RECOMMENDATIONS
We recommend:

    1. That the director of management and operations document the requirement for reporting
       lost Peace Corps property and the process for submitting Personal Property Loss Reports.
       The process must include notifying the Office of Inspector General if the loss is the result
       of suspected theft.

    2. That the country director appoint an individual other than the property officer to conduct
       the physical inventory.

    3. That the director of management and operations develop and implement a process to
       review contract files for completeness and accuracy, on a reoccurring basis and ensure
       security recertifications are being performed.

    4. That the director of management and operations advise staff of the requirement to
       provide an invoice and receipt for all purchase card transactions before approving the
       purchase card statement.




Final Audit Report: Peace Corps/Albania                                                             7
APPENDIX A
                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: 1) document
and data analysis, (2) interviews, and (3) direct observation. Our audit was conducted in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of Peace Corps/Albania covered fiscal years 2009 and 2010 through September 17,
2010. While at the post, we interviewed key staff including the CD, DMO, SSC, staff
responsible for administrative support, and the medical officer. We also interviewed Volunteers
to obtain their views on the effectiveness of the post’s administrative and financial systems in
supporting them. At the end of the audit, we briefed the CD and DMO. At headquarters, we
conducted a general briefing for the regional staff.

During the audit, staff member were very helpful in coordinating their plans to meet the audit
schedule, gathering information, and answering questions. Documentation was well organized
and readily available. Staff worked to correct some of issues during the audit which enabled us
to document the finding and note that corrective action was already taken.

We relied on computer-processed data from the post’s accounting system. While we did not test
the system’s controls, we believe the information generated by the system and used by us was
sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, Foreign Affairs Manual, federal regulations, and
current Peace Corps initiatives and policies.




Final Audit Report: Peace Corps/Albania                                                           8
APPENDIX B
                                      LIST OF ACRONYMS
 CD                          Country Director
 DMO                         Director of Management and Operations
 GSO                         General Services Officer
 ICASS                       International Cooperative Administrative Support Services
 MS                          Peace Corps Manual Section
 OACM                        Office of Acquisitions and Contract Management
 OCFO                        Office of the Chief Financial Officer
 OFMH                        Overseas Financial Management Handbook
 PCSSO                       Peace Corps Safety and Security Officer
 PSC                         Personal Services Contractor
 PO                          Property Officer
 RSO                         Regional Security Officer
 SSC                         Safety and Security Coordinator




Final Audit Report: Peace Corps/Albania                                                  9
APPENDIX C
  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Albania         10
APPENDIX C




Final Audit Report: Peace Corps/Albania   11
APPENDIX C




Final Audit Report: Peace Corps/Albania   12
APPENDIX D
                                          OIG C OMMENTS
Management concurred with all four of the recommendations. We closed two recommendations:
1 and 4. The corrective actions address the recommendations. Recommendations 2 and 3
remain open pending confirmation from the chief compliance officer the actions described in the
management’s response have been completed. For recommendation 2, we request a copy of a
complete physical inventory conducted by administrative assistant. For recommendation 3, we
request documentation and results from a quarterly review of contracts.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Albania                                                        13
APPENDIX E
                   AUDIT COMPLETION AND OIG CONTACT

 AUDIT COMPLETION                     Bradley Grubb, Assistant Inspector General for Audit,
                                      performed the audit of PC/Albania.




                                      Bradley Grubb, CPA
                                      Assistant Inspector General for Audit


 OIG CONTACT                          If you wish to comment on the quality or usefulness of
                                      this report to help us strengthen our product, please
                                      e-mail Bradley Grubb, Assistant Inspector General for
                                      Audit, at bgrubb@peacecorps.gov, or call him at (202)
                                      692-2914.




Final Audit Report: Peace Corps/Albania                                                        14
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT
  Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
  general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and wrongdoing related to Peace
 Corps operations domestically or abroad. Using the OIG contact
    resources below, you can report information or allegations
          confidentially or choose to remain anonymous.




                               Call:
                   Main Office: 202.692.2900
          24-Hour Hotline: 800.233.5874 or 202.692.2915

                              Write:
                            Peace Corps
                      Attn: Inspector General
                        1111 20th St., NW
                      Washington, DC 20526

                                Or

                           Peace Corps
                     Attn: Inspector General
                        P.O. Box 57129
                   Washington, DC 20037-7129

                            Email:
                       OIG@peacecorps.gov

                           Website:
                     www.peacecorps.gov/OIG
